      Department of Homeland Security




            Homeland Security Grant Program 

            Funds Awarded for Project Shield 





OIG-12-19                                    December 2011

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                              DEC 21 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the effectiveness of Urban Areas Security Initiative Grant funds
awarded to the Illinois Emergency Management Agency for Project Shield in Cook
County, Illinois. It is based on interviews with employees and officials of relevant
agencies, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................. 4


     Planning ....................................................................................................................... 4

        Equipment Functionality ........................................................................................ 4

        Equipment Location and Integration ..................................................................... 5


     Management ................................................................................................................. 5

       Project Goals and Objectives ................................................................................. 6

       Compliance With Regulations and Requirements ................................................. 7


     Conclusion ................................................................................................................... 8


     Recommendations ........................................................................................................ 8


     Management Comments and OIG Analysis ................................................................ 8



Appendices
     Appendix A:           Purpose, Scope, and Methodology...................................................... 14

     Appendix B:           Management Comments to the Draft Report ..................................... 15

     Appendix C:           Evaluation of County Board President’s Vehicle .............................. 19

     Appendix D:           Major Contributors to this Report ...................................................... 20

     Appendix E:           Report Distribution ............................................................................ 21



Abbreviations
     DHS                   Department of Homeland Security

     FEMA                  Federal Emergency Management Agency

     FY                    fiscal year

     OIG                   Office of Inspector General

     UASI                  Urban Areas Security Initiative

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  In response to requests from Representative Mike Quigley and
                  Senator Mark Steven Kirk, we audited the Urban Areas Security
                  Initiative grant funds provided by the Federal Emergency
                  Management Agency (FEMA) to the Illinois Emergency
                  Management Agency for Project Shield. The project was for
                  interoperable communication equipment in Cook County, Illinois.
                  The purpose of the review was to determine if the funds were spent
                  efficiently and effectively.

                  Project Shield was intended to enable first responders to capture
                  and share ongoing video and data from the wireless-equipped first
                  responder vehicles or base station monitors in 128 municipalities
                  within Cook County. Between fiscal years 2003 and 2009, Cook
                  County was reimbursed approximately $45 million in federal funds
                  for the installation and maintenance of Project Shield equipment.

                  Urban Areas Security Initiative grant funds for Project Shield were
                  not spent efficiently or effectively. The Urban Area Working
                  Group and Cook County did not adequately plan or manage the
                  project to ensure that the equipment worked properly; the system
                  could be operated in an emergency situation; and the costs were
                  reasonable, allowable, and allocable. This occurred in part because
                  FEMA did not adequately ensure that the State of Illinois
                  effectively monitored Cook County’s expenditures of Project
                  Shield grant funds. As a result, the project was not implemented
                  effectively, and millions of tax dollars may have been wasted on
                  equipment that does not perform as intended.

                  To improve the selection and oversight processes for the Urban
                  Areas Security Initiative grant program, we recommend that FEMA
                  discontinue future Project Shield funds until the grantee validates
                  effective use of the equipment and ensures that the costs were
                  reasonable, allowable, and allocable. We also recommend that the
                  agency establish a review process for new technology projects and
                  ensure that grantees perform proper oversight of subgrantees.
                  FEMA concurred with the recommendations. Written comments
                  to the draft report are incorporated as appropriate and included in
                  their entirety in appendix B.


            Homeland Security Grant Program Funds Awarded for Project Shield

                                         Page 1
Background
                             FEMA administers the Urban Areas Security Initiative (UASI)
                             grants program, which provides financial assistance to states to
                             address the unique planning, equipment, training, and exercise
                             needs of high-risk urban areas. These grants also assist in building
                             capacity to prevent, respond to, and recover from threats or acts of
                             terrorism and other disasters.

                             In letters to the Department of Homeland Security (DHS) Inspector
                             General, Representative Mike Quigley and Senator Mark Steven
                             Kirk 1 expressed concerns about the appropriateness of Homeland
                             Security grant funds for Project Shield in Cook County, Illinois.
                             Funding for Project Shield was provided by UASI grant funds
                             awarded to the Illinois Emergency Management Agency in fiscal
                             years (FYs) 2003 through 2009.

                             The intention of Project Shield was to enhance interoperable
                             communications by installing wireless capability for first
                             responders to access text, image, and video information in a fast,
                             highly secure, and efficient manner. By installing mobile wireless
                             video and data systems in first responder vehicles and fixed cameras
                             at high-risk sites within Cook County, the system would provide
                             high-speed connectivity among first responders, command vehicles,
                             and supporting agencies to permit the strategic deployment of first
                             responders during emergencies. This concept was first tested at the
                             U.S. Open Golf Tournament held in Cook County in June 2003.

                             In October 2004, the Cook County Board of Commissioners
                             decided to install Project Shield equipment in 128 municipalities.
                             Municipalities generally were to receive two vehicle video
                             systems, a hot spot (site that offers wireless Internet over a local
                             area network), and a tower camera. The equipment was primarily
                             provided to police departments, but also was distributed to some
                             fire and emergency management personnel. The installation was
                             scheduled to be rolled out in phases. The Phase 1 contract was
                             awarded in October 2004 for $12.8 million to establish systems in
                             27 municipalities. In November 2005, the county awarded the
                             Phase 2 contract for $11.3 million to establish systems for an
                             additional 20 municipalities.

                             Installations on Phase 1 began in March 2005 and continued
                             through June 2006. Shortly after the vehicle video systems were


1
    At the time of the request, Mr. Kirk served in the U.S. House of Representatives.

                      Homeland Security Grant Program Funds Awarded for Project Shield

                                                     Page 2
      installed, the municipalities started to experience equipment
      problems. As a result, the vehicle installations were stopped while
      an acceptable solution for the equipment problem was sought.

      In 2007, the county decided to terminate the Phase 1 and 2
      contractor, which had already received $23 million. In May 2008,
      the county awarded a Phase 3 contract to a new contractor for
      $10.9 million. The scope of work included new installations at
      some municipalities as well as repairs to existing equipment in
      other municipalities.

      According to Cook County officials, as of April 5, 2011, Project
      Shield equipment has been installed in 87 of 128 municipalities, of
      which 71 have vehicle video systems. Municipalities were still
      experiencing equipment problems and training issues.

      Between FYs 2003 and 2009, Cook County received more than
      $112 million in UASI funds, and dedicated more than half of those
      funds to Project Shield. To date, Cook County has expended more
      than $45 million on the project. Table 1 provides an annual
      breakdown of Cook County grant awards and expenditures for
      Project Shield.

      Table 1. UASI Grant Awards to Cook County, FYs 2003–2009
        Fiscal    Total UASI Award          UASI Funding        UASI Funds
        Year       for Cook County        for Project Shield   Expended on
                                                               Project Shield
         2003         $12,848,927              $12,399,292        $12,496,924
         2004         $16,110,715              $11,303,495         $9,730,379
         2005         $22,465,000              $15,836,810        $13,867,261
         2006         $13,065,000               $5,210,254         $3,609,212
         2007         $16,548,000               $3,000,000         $2,367,876
         2008         $15,904,525               $5,331,425         $3,567,144
         2009         $15,225,309               $5,622,756                  $0
        Total       $112,167,476               $58,704,032        $45,638,796
      Source: Office of Inspector General (OIG) Analysis of FEMA Grant
      Files and State of Illinois Project Shield Expenditures.




Homeland Security Grant Program Funds Awarded for Project Shield

                             Page 3
Results of Audit

     UASI grant funds for Project Shield were not spent efficiently or effectively. The
     Urban Area Working Group and Cook County did not adequately plan or manage
     the project to ensure that the equipment worked properly; the system could be
     operated in an emergency situation; and the costs were reasonable, allowable, and
     allocable. This occurred in part because FEMA did not ensure that the State of
     Illinois effectively monitored Cook County’s expenditures of UASI grant funds for
     Project Shield. As a result, Project Shield was not implemented effectively, and
     millions of tax dollars may have been wasted on equipment that does not perform
     as intended.

     We also addressed a concern regarding the retrofitting of the vehicle used by the
     President of the Cook County Board of Commissioners with Project Shield
     equipment. This issue is discussed in appendix C.

     Planning
            Comprehensive project planning can reduce the potential for problems
            with the functionality, location, and integration of existing equipment.
            However, minimal planning occurred prior to implementation of Project
            Shield. The equipment failed during extreme hot and cold temperatures,
            was not always targeted at the most critical infrastructure, and at times
            prevented first responders from accessing critical databases needed to
            perform their jobs. These problems added to the cost and time to complete
            the project and reduced the project benefits.

                    Equipment Functionality

                    Cook County did not ensure that the concept of the project was
                    adequately tested before awarding an initial $12.8 million contract
                    and subsequent contracts for approximately $23 million for the
                    project. This project used a combination of technologies to
                    provide secure, wireless, and seamless video communication.
                    Although the concept was tested at the U.S. Open Golf Tournament
                    in Cook County in June 2003, the conditions at this test site were
                    not indicative of the actual conditions expected for Project Shield
                    in terms of weather, location, and integration with existing
                    equipment.

                    The temperatures during the trial period were far different than the
                    extreme hot and cold temperatures experienced annually in Cook
                    County. For example, during the first encounter with seasonal
                    temperature changes, the hardware did not perform within the
                    required parameters. The temperature fluctuations caused


              Homeland Security Grant Program Funds Awarded for Project Shield

                                           Page 4
           equipment failures that were not predictable, resulting in delays as
           the problems had to be investigated and resolved.

           Equipment Location and Integration

           Equipment at the municipalities was not always effectively
           located, and in some situations the Project Shield software would
           not integrate with existing communications equipment. Cameras
           were often mounted on police communication towers because of
           distance limitations, the costs for hardwiring, and reception
           problems. These cameras often targeted police parking lots,
           streets, and intersections with questionable homeland security
           benefits. Fixed cameras were also installed in police station
           lobbies, which sometimes duplicated existing capabilities.

           The county learned during the implementation phase that the
           software on the Project Shield wireless computers was not
           compatible with municipalities’ central dispatch systems. This
           resulted in some police officers being unable to access critical
           databases from their vehicles for such items as criminal records,
           warrants, license plates, and vehicle registrations.

           When asked about the lack of planning, county officials informed
           us that the project was initiated at a time when funds were not
           available to conduct planning. Funds were targeted to projects
           ready for implementation. However, Federal Acquisition
           Regulation Subpart 34.005-3 states that whenever practical,
           contracts to be performed during the concept exploration phase
           shall be for relatively short periods, at planned dollar levels. The
           county should have used short-term contracts to refine the
           proposed concept and to reduce the technical uncertainties.

Management
    Project Shield funds were not always used appropriately in achieving the
    project’s goals and objectives, and Cook County was not always in
    compliance with federal regulations, agency administrative requirements,
    and relevant Office of Management and Budget circulars. Because of
    ineffective subgrantee monitoring, FEMA and the State lacked assurances
    that Cook County personnel could use the equipment during an emergency,
    and that the expenditures for the project were allowable, allocable, and
    reasonable.




     Homeland Security Grant Program Funds Awarded for Project Shield

                                  Page 5
      Project Goals and Objectives

      The intent of the project was to transmit video from both mobile
      and fixed cameras during an emergency to decision makers so they
      could strategically deploy first responders. However, the county
      was unable to provide assurances that the municipalities could
      operate the equipment as intended. During visits to various
      municipalities with Project Shield equipment, first responders
      informed us that the equipment was not working, was removed, or
      could not be properly operated.

      Video was transmitted from fixed cameras throughout the county;
      however, we were unable to obtain adequate assurance that the
      video from the vehicle cameras could be transmitted. Municipalities
      were uncertain whether the mobile equipment could transmit video,
      either because the equipment was deficient or because they could
      not operate it. Cook County officials stated that the equipment was
      never officially tested during a Homeland Security exercise.
      Therefore, the county cannot provide adequate assurance that the
      equipment could be used effectively in an emergency situation.

      Of the 128 municipalities in Cook County, we found that:

          •	 32 never had equipment,
          •	 9 left the program after participating in the project, and
          •	 87 have Project Shield equipment, of which 71 have
             vehicle video systems.

      We visited 15 municipalities, which included 14 police departments
      and 4 fire departments, and found numerous problems, including
      equipment malfunctions, unused equipment, and uncertainty on
      how to operate the equipment. We could not determine the exact
      cause of the equipment problems but noted that many users of the
      Project Shield vehicles did not have the necessary training on the
      equipment.

      The results of our 15 visits identified the following:

          •	 4 of 15 municipalities returned all of their Project Shield
             vehicle equipment,
          •	 10 of 15 municipalities complained about either a lack of
             training or the quality of training provided,
          •	 7 of 11 municipalities with equipment complained about
             current service, and



Homeland Security Grant Program Funds Awarded for Project Shield

                             Page 6
          •	 4 of 11 municipalities with equipment were unable to or
             unsure how to transmit video from the vehicle to the
             command center.

      Discussions with police personnel revealed that their primary
      interest was to record and obtain video for criminal evidence.
      They were uncertain whether they could transmit live video to a
      monitoring station, allowing an emergency event to be managed
      from a remote location.

      We also analyzed trouble tickets (a reporting tool used to track
      equipment issues) for the last 3 months of calendar year 2010, and
      found that 62 municipalities submitted 122 trouble tickets for
      equipment malfunctions, such as the inability to access database
      records in the vehicle.

      Compliance With Regulations and Requirements

      Cook County did not always comply with procurement, property,
      and record requirements. We found missing records, improper
      procurement practices, unallowable costs, and unaccountable
      inventory items. We were unable to reconcile invoices with the
      contracts and modifications, and we could not verify that all
      incurred costs were reasonable, allowable, and allocable. For
      example:

          •	 The project was initiated in FY 2005 and incurred
             approximately $7 million in maintenance cost for 6 years,
             even though maintenance costs were not allowed for prior
             grant year acquisitions until 2010.
          •	 The county awarded a noncompetitive contract on Phase 2
             for $11.3 million.
          •	 Phase 1 and 2 contracts had 218 change orders, and we
             were unable to obtain documentation for 168 change orders
             with some changes amounting to as much as $413,555.
          •	 The county approved major revisions to the Phase 2 contract
             without evidence of grantee approval. For example, Change
             Order No. 130-2 altered an $11 million contract, reducing
             the line items by more than $6 million and then substituting
             new items totaling $4.3 million, additional maintenance for
             $1.1 million, and a $750,000 contingency fund.
          •	 Sampling of decommissioned equipment from Phases 1 and
             2 revealed that 18% of the items were missing from the
             inventory. Physical inventory reconciliations were not
             performed as required.


Homeland Security Grant Program Funds Awarded for Project Shield

                             Page 7
           •	 The Phase 3 contract had only one change order, which
              extended the contract 6 months without additional costs.
              However, this contract increased from $10.9 million to
              approximately $23 million, and the contract period was
              extended over 2 years.

Conclusion
       FEMA, the State of Illinois, the Urban Area Working Group, and
       Cook County did not ensure the effective implementation of
       Project Shield. The lack of planning was evidenced by faulty
       equipment, questionable locations for the equipment, and inability
       to integrate with existing communication equipment. The mobile
       video systems were not adequately tested to ensure that they could
       be operated effectively during an emergency. Project Shield
       expenditures were not adequately authorized, supported, and
       verified. The weaknesses can be attributed to Cook County’s
       inadequate management of the project, as well as the ineffective
       monitoring by FEMA and the State of Illinois.

Recommendations
       We recommend that the Assistant Administrator, Grant Programs
       Directorate:

       Recommendation #1: Develop a review process for new
       technology projects to ensure that they are properly evaluated prior
       to project planning, design, and implementation.

       Recommendation #2: Discontinue funding of Project Shield until
       the grantee can ensure that the mobile equipment can be operated
       effectively.

       Recommendation #3: Determine that Project Shield costs are
       reasonable, allowable, and allocable.

       Recommendation #4: Ensure that the grantee performs adequate
       oversight of UASI projects implemented by subgrantees, including
       compliance with grant regulatory and administrative requirements.

Management Comments and OIG Analysis
       Management comments to recommendation 1. FEMA
       concurred with the recommendation. FEMA noted that it places
       greater scrutiny on proposals for “proof of concept” projects
       during the application phase, because the nature of some proposed
 Homeland Security Grant Program Funds Awarded for Project Shield


                              Page 8

      equipment included in the “proof of concept” projects is often
      untested. FEMA said that the Investment Justification template
      developed in FY 2006 and utilized in all subsequent fiscal years
      requires Homeland Security Grant Program applicants to describe
      the planning activities for proposed projects during the application
      process.

      According to FEMA, in FYs 2008 and 2009 it required all grantees
      to allocate 25% of their State Homeland Security Program and
      UASI grant awards to planning activities. FEMA also said that
      grant guidance in FYs 2010 and 2011 extensively referenced
      planning activities to reinforce the critical need for pre-planning
      associated with technology projects.

      We agree that since this project was initiated, FEMA has revised
      the application process for awarding the UASI grants, and requires
      more evidence to support the Urban Areas’ planning effort.
      Homeland Security Grant Program guidance issued for subsequent
      fiscal years has targeted funding for planning activities. However,
      FEMA still needs to ensure that it has a process in place that will
      enable “proof of concept” projects to undergo an independent
      technical evaluation to determine feasibility prior to project
      planning, design, and implementation. This recommendation
      remains unresolved and open.

      Management comments to recommendation 2. FEMA
      requested that recommendation 2, as presented in the draft report,
      be separated into two distinct recommendations in order to
      effectively address the OIG intent. We agreed and have separated
      the recommendation into recommendations 2 and 3. We have also
      relabeled the prior recommendation 3 as recommendation 4.

      FEMA concurred with the original recommendation 2, and stated
      that it will coordinate with the State and Cook County to establish
      a “current state” action plan and associated timeline that will:
      (1) identify obligated and unobligated balances from Cook
      County’s approved Project Shield activities (FYs 2007 through
      2010), (2) identify existing technology gaps and hardware/software
      issues associated with Project Shield, and (3) identify personnel
      training gaps on existing technology within participating
      jurisdictions. FEMA indicated that during the period of the
      development of this plan, it will require that any new expenditures
      associated with Project Shield be temporarily put on hold and
      payments for existing expenditures comply with Code of Federal
      Regulations Title 44 §13.21 (g) (Withholding payments).


Homeland Security Grant Program Funds Awarded for Project Shield

                             Page 9
      FEMA stated that it is confident that this action plan can be
      completed within 90 days from the date of this report. According
      to FEMA, in July 2011 Cook County officials communicated to
      FEMA in writing their intent to cease and desist current Project
      Shield activities, and requested assistance in establishing a path
      forward that addresses generally those elements of the proposed
      action plan above. FEMA stated that it is committed to working
      with the State and Cook County to complete this plan, using it as
      the basis to assess the best project strategy moving forward.

      Cook County officials acknowledged that there were systemic
      issues with project management and the functionality of the
      technology implemented. Cook County did not adequately plan or
      manage the project to ensure that the equipment performed as
      intended or operated under foreseeable conditions. Cook County
      officials also stated that it appears highly unlikely that the installed
      equipment could be used effectively in an emergency situation, and
      as a result, they have elected not to move forward with Project
      Shield. According to Cook County officials, they removed the
      cameras from the vehicles because of a safety issue, and intend to
      conduct a Threat and Hazard Identification and Risk Assessment to
      identify critical infrastructure and locations where enhanced
      security measures would be recommended. Cook County officials
      said that based on this assessment, the fixed cameras would be
      redeployed to the sites warranting this equipment.

      The actions proposed by FEMA and Cook County are responsive
      to the intent of the recommendation and, if properly implemented,
      should ensure the Project Shield equipment that still has value will
      be used effectively. This recommendation is considered resolved
      and open pending FEMA notification and verification that the
      action plan has been completed.

      Management comments to recommendation 3. FEMA
      requested that the new recommendation address proposed costs to
      support Project Shield. However, the intent of our recommendation
      was to ensure that all expended costs for Project Shield be
      reviewed to ensure that they were reasonable, allowable, and
      allocable.

      In its response, FEMA stated that building on the “current state”
      action plan for recommendation 2, it will coordinate with the State
      and Cook County to establish a “future state” action plan and
      associated timeline, which will be the basis of FEMA’s evaluation
      to determine if proposed costs to support Project Shield are
      reasonable, allowable, and allocable. According to FEMA, this

Homeland Security Grant Program Funds Awarded for Project Shield

                            Page 10
      action plan will include: (1) a revised scope of Project Shield
      activities, (2) a revised budget that includes equipment details and
      training needs, (3) a timeline with expected completion dates that
      aligns proposed future costs with the open grant, and (4) reporting
      requirements that communicates the status of project details and
      deadlines from Cook County through the State to FEMA.

      FEMA stated that it will review the action plan details in
      coordination with the grantee and Cook County as a UASI
      subrecipient, and examine any unobligated balances from open
      UASI grants specifically approved for Project Shield activities.
      According to FEMA, this process will conform to the modified
      project scope to meet Cook County’s efforts to ensure that all
      equipment is installed, functioning, and meeting the needs of the
      project.

      Cook County officials stated that they continue to conduct an
      internal audit of previous practices with respect to accounting,
      grant management, and financial transparency. The officials are
      working to address past issues with respect to procurement,
      property, and record requirements to ensure a transparent and
      accountable system that is guided by performance metrics.

      Cook County officials also stated that regarding project costs, a
      sampling of available records indicates that purchases were
      allocable, reasonable, and with proper authority, allowable. They
      also stated that the contracts were competitively bid, multiple
      levels of government performed oversight of the project, and
      efforts were made to correct a variety of issues.

      We disagree with the comments from Cook County officials
      regarding project costs. The Phase 2 contract was never bid
      competitively, and approval from the Board of Commissioners
      does not ensure that the costs were allocable, reasonable, and
      allowable.

      The actions proposed by FEMA are not responsive to the intent of
      the recommendation, which was to determine whether the costs
      incurred to date were reasonable, allocable, and allowable.
      Instead, FEMA requested that the recommendation address
      proposed (future) costs. We disagree with the change, and request
      FEMA to address our original recommendation. This
      recommendation remains unresolved and open.




Homeland Security Grant Program Funds Awarded for Project Shield

                            Page 11
      Management comments to recommendation 4. FEMA
      concurred with the recommendation. FEMA stated that
      recognizing that the scope of this audit dated back to activities
      funded with FY 2003 preparedness program dollars, it has vastly
      enhanced the guidance development, monitoring, and oversight
      functions of its programs since that time. FEMA stated that the
      same holds true for the State, which initiated a robust subrecipient
      monitoring policy in 2008, which FEMA approved.

      FEMA stated that coordination between FEMA headquarters’
      programmatic and financial personnel and grant management
      specialists in FEMA Region V enables FEMA to ensure that all
      grantees perform oversight of subrecipient projects. According to
      FEMA, its programmatic and financial monitoring of the state
      measures compliance with federal regulations for subgrants,
      monitoring and reporting program performance, financial
      reporting, retention and access requirements for records, and
      enforcement.

      Also according to FEMA, its existing monitoring processes are
      structured to ensure that all grantees perform adequate oversight of
      subawards, and mechanisms are in place to identify, report, and
      recommend any changes needed in subrecipient monitoring
      protocols at the state level. FEMA also stated that it provides
      technical assistance and training to grant recipients and
      subrecipients on all guiding policies, regulations, and directives
      associated with its federal grant programs.

      State officials informed us that although they are the grantee,
      according to FEMA Homeland Security Grant Program guidance
      they do not have the ability to make changes to the UASI program.
      They claim that the Urban Area Working Group is responsible for
      planning and managing the project, and that the State is only a
      voting member of the Working Group. State officials said they
      have a subgrantee monitoring program and through the program
      were aware of problems with subgrantee equipment inventory
      records. State officials further claimed that they draw down funds
      only after a thorough invoice review, do not have the opportunity
      to manage the project, and are doing all they can legally do
      regarding implementation of the project. State personnel also
      pointed out that FEMA did a monitoring review of the State and
      found no significant problems.

      In addition, Cook County officials stated that they are undertaking
      a complete accounting of all grants, expenditure, accounting, and
      tracking practices, as well as controls. They stated that a

Homeland Security Grant Program Funds Awarded for Project Shield

                            Page 12
      comprehensive process-based system will be developed to ensure
      that procedural safeguards are in place to ensure the proper use,
      management, and tracking of grant dollars.

      We acknowledge that the guidance for UASI has changed over the
      past few years and that administrative requirements shifted from
      the State to the Urban Area Working Group. Regardless, the
      deficiencies cited in this report were significant and should have
      been detected by both FEMA and the State during their reviews,
      and corrective actions initiated sooner. We believe that the current
      system of monitoring UASI grants is flawed, and both FEMA and
      the State need to improve the review process and perform better
      oversight of compliance with the grant regulatory and
      administrative requirements. The actions proposed by FEMA and
      the State are not responsive to the intent of the recommendation.
      This recommendation remains unresolved and open.




Homeland Security Grant Program Funds Awarded for Project Shield

                            Page 13
Appendix A
Purpose, Scope, and Methodology

                    The purpose of our review was to determine if the funds for Project
                    Shield were spent efficiently and effectively. To address this issue,
                    we reviewed applicable federal laws and regulations, as well as
                    DHS and FEMA guidance, policies, and procedures. We also:

                        •	 Interviewed FEMA and Illinois Emergency Management
                           Agency officials concerning the process used to evaluate
                           and award the UASI grants to the Illinois Emergency
                           Management Agency;
                        •	 Reviewed UASI award documents, reimbursed
                           expenditures, and monitoring reports from FYs 2003 to
                           2010;
                        •	 Visited the Department of Homeland Security and
                           Emergency Management in Cook County, Illinois, to
                           interview county officials, and to obtain and review records
                           on Project Shield concerning compliance with the
                           applicable administrative requirements and cost principles;
                        •	 Interviewed the Cook County contractor responsible for
                           Phase 3;
                        •	 Judgmentally selected 15 of 128 municipalities for site
                           visits and examined Project Shield equipment at these
                           locations; and
                        •	 Examined property records for Project Shield equipment
                           purchased during Phases 1 and 2 of the project.

                    We conducted this performance audit between January and June
                    2011 pursuant to the Inspector General Act of 1978, as amended,
                    and according to generally accepted government auditing
                    standards. Those standards require that we plan and perform the
                    audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives.




              Homeland Security Grant Program Funds Awarded for Project Shield


                                          Page 14

Appendix B
Management Comments to the Draft Report




                                                 SEP ! 4 2011


         MEMORANDUM FOR:                   Anne L. Richards
                                           Assistant Inspector General for Audits
                                           O!Ticc, of IrlsP~<~lQtPcneral

        FROM:
                                           r5~JLf'J~~~fi;;;:{h._"", . """"".,
                                           Din:dm
                                           Office ofPolic), tmd Progrnm AnaJysis

         SUBJECT:                          FEMA's Response to OrG Draft Report (Project Number 11~102~
                                           AUD~FEMA), Homeland Sccuri(y Grant Pmgram Funds Av.'urded
                                           for Project Shield


        The federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
        respond to the Oflice of Inspector General (OIG) draft report. The following arc our responses
        to your recommendations t()l' corrective action.

         Recommendation #1: Develop a review process for new technology projects to ensure that they
         arc properly evaluated prior to project ph.mnil1g, design, and implementation,

        FEMA Response: FEMA concurs with the recommendation, however, notes that FFMA phices
        b'T"catcr SLTutiJlY UIl pnJPusals fin "proof of concept" projects during the application phase. This is
        because the nature of some proposed equipment included in the "proof of concept" projects IS
        olhm untested. Further, the Investment Jusbfication template developed in FY 2006 and utilized
        111 all subseqnmt fiscal years under the Horndand Security Grant Program (HSGF), requires
        2tr:;plicants d':s<ribc the planning i>Aiv;tiesfi:.;r propoc,:oJ nrojcct5 during the appli;.:atwl)
        jJrDO,~SS_ SpGC;!i:-D.U;·, 1h0 hwcst:uz'nt Jlnt:iication t(',;11piute vVhiCh applicants arc ,eqlilfcd tf' usc
        ~Yh8n pn:p:;t,jng arid submil1ing ihetl appliCa1L)f)                    the dpp:icant to identify project
        milestones:_ pOlenti,,} ciJ;,11engcs ir, dJi:~ effeC1: V,"                     i)f ill; invcsi.mcn:. itnd fiTthcL

        b(:"\\' th05~~ chlknges \\ill be addr::;scd and lLiLg'ltC(:. Tbs requirement is :'ieee quite otten by
        FEM/\ stn!J during tbe eXHmi:1aiion of state supplemental gmdunce fcqulfGmcnts, \\.-h(.~rcby
        prospective mbrccipicnt:,; ale required by be State Administrative Agency' (Sf-\A) to provide
        ~])C:ciik project r1ct,\jJ "~in6uding I:H rdil'cd planning: dctr\'itie;          in ;-ulvance (,1' any 'dhn~ljpiem
        "co::<c-ing h,tdIT:g, -Chis iJ':fi::-nn;:lLion is cri j cal if' providing jhc SAA the de-ta:! n;:~'-dd ti) report
        OF)grc35 tlJroug.hFE:i\'!/\':i                 5;tnltegj' ;mph::rnS1'lLltl(,n              'J)'.XV recent years,




                 Homeland Security Grant Program Funds Awarded for Project Shield


                                                           Page 15

Appendix B
Management Comments to the Draft Report




         recognlzing the critical jmpoJ'taJlu:: plannillg play:.: in any project ,'I" \vel\ as the (lVenlll need f()J'
         (;,ttcctive planning in support c,f sILtc, local and rcgioHul homeland security activities, FEMA
         r('quircd all grantees to allocate 251~,;) or their State Homeland Security Grant Program (SHSP)
         and Urball Are,;s Security ldtinlive ellA.S!) grant program a\vard to planning acth:ities in FY
         20()S and FV 2009. rinally, though J101 a requirement ill FY 2010 and FY 20{ 1 like 11w prior two
         fiscal years, IISGP guidance references planning activities extL'T1sively to rcinf(Jrcc the critical
         needk:f pre-planning activities associaK'(l \-vith all equipment and technology proje{.'1s. (\s of this
         report, aU F'{ 20C)() and prim HSGP dnd liASl gr:mt Hwnrds have ex.pired and/or are offkially
         dosed t(Jr the State of JllilW1S (based on FEMA records). Based on the details dcscrihed here (lnd
         the speciticity FEMA requires from grantees fix program awards in FY 2007 and t()t"ward,
         FFMA believes YNe have met the intent of this f(."C011lmencation and requests that this
         rcc"'ommendation be resolved and closed.

         Recommendation #2: Diseontinue funding of Project Shield until the grantee can ensure that the
         r;whilc equipment can he opeLlled effectively, and determines thBt the costs are reasonable,
         allowable, and allocable.

         FEI\tA Response: FEMA concurs with the recommendation, and requests that
         Rccommcmlation #2 he separated into two distinct recommendations in order to effectively
         nddress the orG intent. FEMA requests that the modified Rccollllllcndation #2 read as f~)ll(nvs:
         "DiscolllinuefilIlding ofP"oject Shield uilril the grantee can e!Ism'" dUll the mobile equipmcm
         c{ln be opc1'med effective!:I'." [n response to the l11(xiified Recommendation #2, FEMA will
         coordimltc \V]t)] thi: lllinois Erncrgcncy Management Agency (lEMA), serving as the SAA, and
         C'ook County DcptlJiment of Homeland Security and Emergency Milnagement (DHSEM) to
         establish a CUlTcnt state action plan and associated tirneline th2t will: (1) identify both obliga1cd
         and unobligated balances from Cook County's open grants (FY 2007 through FY 2010 U,;\S1),
         dedicated to previously approved Project Shield aClivities; (2) identify existir~g technology gaps
         and hardware/software issues associated with Projt;d Shield equipment that the County has
         already identitied cs needing to be addressed und remedied; and (3) identify personnel training
         gaps on existing technology within those jurisdictions currently pilrtieipating in the Proiect
         Shield initiative. During the period ofthc development of this plan, FEMA \",ill require that any
         new expenditures Dssociatcd lvith Cook Cmmly's Project Shield activity be temporarily put on
         hold and payments t(l!" existing eXjK'nditures cOl1lplywith 44 eFR Pari 13 § 13.21(g)
         (rYilhho/ding pa.vmcrlls),

         FEMA is cnnl~dcnj ilw: ihi:; action pi; n CHn be CO!11pleted ",vithin 9() i1a:ysfrclU ;he date Dfthis
                  ,is
         r';,pcrL ('cok COULt y Li1 rSEM [1<15 ;dread) begun h;,ding this (:ffi::!lt ea:oly .fuly 2Dl1 ,
         IJHSE,i\'l ccmmulli(:~lkd in vvritng to FEIvL\ thi;;;r intent to      ;,md Jcsi~i em Cdrr':nt Projt'ct
         Shkld actid[y and {c(nested assistance i n t ( ) y w a r d ,,\'lueL ,lddn,'s5cs g,ollcfaFy
         UtiJSi;: t<cHl cnis of the propnscc cutTen! state Hd.ion pbn          FE\J.'\ is (;(,;mni ncd to 1'Jerking
         ,'lith beth IE~vJA ;~nd I)HSLM tu C01Tlph::k til::, plan, USLlg it dS i.he llib: " io ;L~:,e"'" Ihe lwst
         project stTJ.tcgy mm'ing Lxward, F'EMA bclic'iC:; thjs sati~di c s the intent <:>fthe xCOHl:ncndaLon
         and requests thm ths rt'('o111mcnd:Ficn fdnain r('so!ved and O\X11 :JenGmg lmplemenlntio'l of the
         sUlicd U;ITt'cl:ve !K:t!();1S'




                   Homeland Security Grant Program Funds Awarded for Project Shield


                                                         Page 16

Appendix B
Management Comments to the Draft Report




         FE.\,tA lcqueS!:-' :t Hew n:,:oHHlHciHblion he ,ldded 10 :THeel the ~econd issue \vhkh the eunent
         Rccommend'ltion #2 addresses. This new Recommendation #3 should read as ji:Jlhw,'s:
         "J)c!c ," inific that currCIII proposed costs to support Pruit'c: Shield c().',Is arc rca.wrJabic.
         tllioH'ab!e, and ()11ocable" Building on rhe action plUl1 referenced under the Rceommcndation
         #2 response, FEMA vvi!! coordinate ..vitI! lEMA amI Cook County DHSFM to establi<1 a future
         state action plan and associated timclinc which \vill he the bdsis ofFEMA's cyaluation to
         determine if proposed costs to support ProjL'Ct Shield are reasonable, aHowab!e. and allocable.
         'rills action plan \vill include: n) a revised scope ofProjcct Shield activities for Cook Coumy,
         per FEMA's Investment t\'1oditicatiDn request process; (2) a re"vised budgCl that includes
         cqu:pment details and training needs ti:)f Cook County llnd any affected Project Shield partner
         jurisdictions: (3) a timeline 'shlch aligns proposed future costs to the respective open grant nnd
         expected completion daLes: ami (4) per direction from FEMA, set reporting requirements, to
         include projcc~ details and deadlines, that communicates the :;tatus of acti"vity under the fuure
         :lction plan, to be provided by C'ook County through lEMA to FEMA. In coordination with the
         gnmlt:e and COOK Cuunty as il LlASI subrccipient, FEMA wil! revic~\v the fmurc state action plan
         details (1-4 abo\'c) and examine any 1.1!lobligatcd balances frull! opc'uU AS 1 gnn1s (spt.~eiticalJy
         approved Tor ProjL'Ct Shick: acti-vitics) that can SUPlX1Ji ('UlTcnt needs. This process wil! conf(mn
         to the moditled project scope to meet Cook County's effi:1flq to ensure ad equipment is installed,
          functioning and meeTing the intt'nded cc('d of the Project at large. FEMA will provide the
         timc1inc tilT completing this action plan ill thc response to thei'inaJ report, as Ihe timelin(' is
         dependent on the completion of the COITectiyc nctions in the revised Recommendation #2.
         FEMA believes this satistles the intent of the recommendation and requests that tilL"
         recummendation remain resolved and open pending implementation o1'lhe stated corrective
         actions.

         Recommendation #3: Et1SUfC that the grantee performs adequate oversight ofUASI projcct~
         implemented by subgranlees, i[;duuing r:omplimlce with grant regulatory and administrative
         rn]uircmcnts.

         FEMA Response: FEMA concurs with the recommendation. Ba<;cd on the response to the
         original Recommendation #2, we request that this reco:nmendation be renumbered as
         Recoflllllcmlatinn #4. Ret:Dgnizing that the scope of this alll111 dated hack to activities funded
         with [:y 2003 prcpanxlness program dollars. FEMA has vastly cJlhanccd tbe g1.;idancc
         development, monltc1ring and o;..'crsight functions of its programs sincc that ::ime. Tlis same
         h{)lds true to the StaL: of Illinois SA/\" which initiated a rubust wbrcc::pi('l1t monitori,;g pelisy in
         200i \Nhich FFMA :Jpprm'cd.

         AJ the ii;xle'~ a] leve:' coDrdjn~tticn bBtviCC;;lF !:· 1\I;/\ ]"k;::d quJrtcrs' progranl1T;[,t1.c Cind tinanc inl
         personnt:': and grant rr.;;,nage'nent specialists in FErv1 A ('(eglon V contribue g(catly to the s~(}P (:
         (If :UUil.itOl in;; ami L)vcl.si).:,,h1 ;'eli , ilit:..; T1-I1"; provides       'T\Cilnstl", our ng:en.cy :0 CHSl \n; tila!   ,:11
         grantees p erfofm oversight cd' 3'..lbrccipi cnt projects pcr 44 C>F R P;tli J:3 ?l 337 (Sldlwams):
         S13.40 (Aknitoring alld reporting progmn; pcr!orifJmlcf'); ~ 13.4 J O;tnan('/o! npor tiI!g); and
         S13,42 (Rcl('ntion ond tleLCSS' rcq:li('cmcl!!sjiy                I'ec~)ras):   ant   Sj;) A2 {En,(orc cn1ent), COlllpli ;::nc0
                LI;;~S i~   \Uh'j:1FS is Plcasured during pn.lgrmnn.aric ar,d tin a'1cinl             moni~oring    (lfthe 5tate




                    Homeland Security Grant Program Funds Awarded for Project Shield


                                                                     Page 17

Appendix B
Management Comments to the Draft Report




         regulations arc cited \',lithin ail ofGPl)'s guidance and appheato!1 kits, indud1l1g the Urb:l.l1
         Areas SeL~Llrity Initiatlvc (UASI) Grant Program, and have been recently standardized I~)[ all of
         GPD'" prepan:dncss grimt program application kits ill FY 20ll. Additional!y, FFivlA GPO starT
         is available dny~to-day and work closely \vith grantees and subrecipjl.'nts in order to provide
         clarifYing guidnnce, insight and explamtion l't;;'garding any of 01..11' pwgrannnatic cr tlnanClal
         n::gulcltions

         FEi\1A ' s existing monitonng processes are structured to ensure that all grantees pcri('rrn
         ndequate oversight of the subav/ards issued under the preparedness grant programs.         Mechanism.~
         at' m place -within cunent financ id alld pmgrannnatic lnoTlit()ring tools to identify'" :"epol"t, and
         recommend any changes needed in subrccipicnt monitoring protocols at the statc level ',vhicb arc
         used to review state subrccipicnt activity. FE:\1A \vlll continue to mOlLtm the state's
         suhrecipient monit01ing, as per current monitming protocols, ft)f all future programmatic and
         financ ial r:'lonitoring visits. FEMA hdit'vcs this silLisfies !hf:~ inlent nfthe recommendation and
         requests that this ;"ccommendation be resolved and closed.

         Ag::lin, we thank you t(n the opportunity to review and comment on your draft report which
         contains recommendations aimed at improving the d:licicl1cy of our agency. Should you have
         further questions regarding our response, please do not hC3itatc to call FEMA's Chief Audit
         Liaison, Brad Shetk", at 202-646~! 308.




                 Homeland Security Grant Program Funds Awarded for Project Shield


                                                       Page 18

Appendix C
Evaluation of County Board President’s Vehicle

                     In a letter to the DHS Inspector General, Representative
                     Mike Quigley and Senator Mark Steven Kirk expressed concerns
                     about the vehicle used by the President of the Cook County Board
                     of Commissioners being equipped with Project Shield equipment.
                     They were concerned that these funds should be used for
                     emergency responders, not for executive transport.

                     According to Cook County personnel, Homeland Security funds
                     were used to retrofit the vehicle with communication equipment.
                     The rationale for installing this equipment was that the President of
                     the Cook County Board of Commissioners needed access to
                     current information to make real-time decisions during emergency
                     events in the county. We found no specific grant guidance that
                     would disallow this cost.




               Homeland Security Grant Program Funds Awarded for Project Shield

                                           Page 19
Appendix D
Major Contributors to this Report

                     Michael Siviy, Director
                     Dennis Deely, Audit Manager
                     Tricia Benson, Auditor-in-Charge
                     LaTrina McCowin, Auditor
                     Kevin King, Auditor
                     Enrique Leal, Auditor
                     Dawn Eliece Pizarro, Referencer




               Homeland Security Grant Program Funds Awarded for Project Shield

                                           Page 20
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               Homeland Security Grant Program Funds Awarded for Project Shield


                                           Page 21

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
